APPENDIX

APPENDIX A
United States Court of Appeals
For the First Circuit
No. 17-2220
JACKIE HOSANG LAWSON, Plaintiff, Appellant, v.
FMR LLC, d/b/a Fidelity Investments; FMR CORP.,
d/b/a Fidelity Investments; FIDELITY
BROKERAGE SERVICES, LLC, d/b/a Fidelity
Investments, Defendants, Appellees.
Before
Howard, Chief Judge,
Torruella and Thompson, Circuit Judges.
JUDGMENT
Entered: March 18, 2019
Plaintiff-appellant Jackie Hosang Lawson
appeals from a judgment in favor of defendants on her
claims of retaliatory termination for whistleblowing
activities. Following a two-week trial, a jury returned
a verdict in favor of defendants FMR, Inc., Fidelity
Investments, and various other Fidelity entities.
Many of the issues Lawson raises are raised for the
first time on appeal, which means our review is for
plain error only. That is an especially difficult test to
meet in civil cases, and we are not persuaded that
Lawson has met that standard here. See Rosa-Rivera
v. Dorado Health. Inc.. 787 F.3d 614, 620 (1st Cir.
2015) (“A finding of plain error is a rarity in civil
cases.”). Nor do we conclude that the district court
la

abused its discretion or otherwise erred with respect
to the claims that were raised below. After a careful
review of the entire record, the submissions of the
parties, and those arguments Lawson sufficiently
develops in her opening brief, we affirm.
First, Lawson challenges the district court’s
denial of a motion to compel discovery. We have
considered the claim carefully and conclude that the
ruling did not mark an abuse of discretion by the
district court and, moreover, did not prejudice
Lawson, who was invited to submit narrower
document requests but declined, for the most part, to
do so. See Pina v. Children’s Place. 740 F.3d 785, 790 ,
(1st Cir. 2014) (standard of review).
Second, Lawson’s claim that the district court
erred by excluding the testimony of her expert
witness, which is reviewed for abuse of discretion, see
Rodriguez v. SmithKline Beecham. 224 F.3d 1, 8-9
(1st Cir. 2000), is unconvincing. The district court
supportably found that the proffered testimony,
where not irrelevant to the issues presented by the
case, improperly impinged upon the role of the court
in instructing jurors on the applicable legal
standards.
Third, we find no error, plain or otherwise, in
the statements made by defendant’s counsel in closing
argument. The challenged statements were supported
by testimony or documents presented at trial, and
Lawson has failed to demonstrate that they were
improper. In any event, even “improper remarks
made during closing arguments rarely are so serious
as to constitute reversible error.” Venson v.
Altamirano. 749 F.3d 641, 657 (7th Cir. 2014). The
comments challenged in this appeal do not rise to that
level.
2a

Fourth, we discern no error in the court’s
decision to omit certain jury instructions requested by
the plaintiff, a claim not raised below and therefore
also reviewed for plain error. See Rosa-Rivera. 787
F.3d at 618-19. Similarly, we discern no error, plain
or otherwise, in the format of the verdict slip provided
to the jury.
Fifth, we find unconvincing Lawson’s claim
that the verdict was unsupported by the evidence
presented at trial. As an initial matter, Lawson did
not lodge any objection to the jury’s verdict or seek a
new trial on any ground at the end of proceedings
below. As such, this claim is waived. Puerto Rico
Aqueduct & Sewer Auth. v. Constructora Lluch, Inc..
169 F.3d 68, 82 (1st Cir. 1999)(“A motion for a new
trial must be made in the first instance before the
trial court, particularly where the weight of the
evidence is at issue . . . The failure to move for a new
trial waives the issue on appeal.”); see also Travers v.
Flight Servs. & Svs.. Inc.. 808 F.3d 525, 537 (1st Cir.
2015) (explaining that, even if failure to raise
evidence-bound argument in new trial motion does
not effect waiver, such claim would be forfeited and
reviewed at most for plain error). In any event, even
if the claim were not waived, it is unconvincing. In
challenging the verdict, Lawson asks this court to
resolve factual disputes, weigh conflicting evidence,
and render credibility determinations in a manner
contrary to the manner in which the jury resolved
those issues. This is not a proper role for this court,
which “take[s] the record in the light most flattering
to the nonmoving party, without probing the veracity
of the witnesses, resolving conflicts in the testimony,
or assaying the weight of the evidence” and which
“may reverse . . . only if reasonable persons could not
have reached the conclusion that the jury embraced.”
3a

Correa v. Host). San Francisco. 69 F.3d 1184, 1191
(1st Cir. 1995)(internal citations omitted).
Sixth, we discern no error or abuse of discretion
in the district court’s determination that Lawson was
not a “prevailing party” for purposes of recovering an
award of attorney’s fees. Lawson has failed to
demonstrate that obtaining an interlocutory ruling
permitting her to move forward with her case in the
face of a dismissal motion qualifies her as a
“prevailing party” for fee-shifting purposes. See
Hewitt v. Helms. 482 U.S. 755, 760 (1987) (holding
that a plaintiffs “interlocutory ruling that his
complaint should not have been dismissed for failure
to state a constitutional claim” is “not the stuff of
which legal victories are made” and, therefore, could
not ground prevailing party status for fee-shifting
purposes).
Finally, Lawson’s most recent motion to file a
supplemental appendix is denied for the reasons
provided by the court when rejecting similar motions
previously filed by Lawson. See United States v.
Rivera-Rosario. 300 F.3d 1, 9 (1st Cir. 2002) (a motion
under Fed. R. App. P. 10(e) “‘is designed to only
supplement the record on appeal so that it accurately
reflects what occurred before the district court’”)
(quoting Belber v. Linson. 905 F.2d 549, 551 n.l (1st
Cir. 1990)).

4a

The judgment of the district court is affirmed.
Any remaining pending motions are denied as moot.
By the Court:
Maria R. Hamilton,
Clerk
cc:
Paul F. Kelly
James A.W. Shaw
Jackie Hosang Lawson
William H. Kettlewell
Victoria L. Steinberg
Alexandra G. Watson

5a

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
JACKIE HOSANG LAWSON,
Plaintiff,
v.
FMR LLC, dba FIDELITY INVESTMENTS,
FMR CORP., dba FIDELITY INVESTMENTS,
and FIDELITY BROKERAGE SERVICES
LLC, dba FIDELITY INVESTMENTS,
Defendants.

)
)
)
)
)

)
)
)
)
)

CIVIL ACTION NO.
08-10466-DPW
JUDGMENT
WOODLOCK, District Judge
In accordance with the Jury Verdict returned
on November 14, 2017, it is hereby ORDERED,
ADJUDGED AND DECREED:
Judgment for the Defendants against the
Plaintiff.
BY THE COURT,
/s/ Barbara I. Beatty
Deputy Clerk
DATED: November 14, 2017

6a

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
JACKIE HOSANG LAWSON,
Plaintiff,
v.
FMR LLC, dba FIDELITY INVESTMENTS;
FMR CORP., dba FIDELITY
INVESTMENTS; and FIDELITY
BROKERAGES SERVICES LLC, dba
FIDELITY INVESTMENTS
Defendants.

)
)
)
)
)
)

)
)
)
)
)
)
)

CIVIL ACTION NO.
08-10466-DPW
VERDICT
I.A

Has Ms. Lawson proven by a preponderance of
the evidence she had an actual subjective belief
that Fidelity’s conduct could constitute violation
of Federal law relating to fraud against
Fidelity’s Mutual Fund shareholders?

(ANSWER “YES” OR “NO”)
l.B

NO.

Has Ms. Lawson proven by a preponderance
of the evidence she had an objectively
reasonable belief that Fidelity’s conduct
could constitute violation of Federal law
7a

relating to fraud against Fidelity’s Mutual
Fund shareholders?
(ANSWER “YES” OR “NO”)

NO.

If you have answered “NO” to either Question
1A or Question 1.B, answer no further questions
and sign, date the last page and return your Verdict.
Otherwise, turn to Question 2.
2.

What is the earliest date Ms. Lawson has
proven by a preponderance of the evidence
Fidelity had notice she was engaged in the
protected activity of providing information
concerning her reasonable belief that
Fidelity’s conduct could constitute violation
of Federal law relating to fraud against
Fidelity’s Mutual Fund shareholders?

(ANSWER BY IDENTIFYING DATE, MONTH
and YEAR)
__
Answer only those questions in the subparts
of Section 3.A concerning activity occurring on or
after the date you have established in your
Answer to Question 2.
3.A

Has Ms. Lawson proven by a preponderance
of the evidence she suffered adverse
employment action by Fidelity in any one or
more of the following ways?

8a

(i)

She was constructively discharged
from employment in September 2007.
(ANSWER “YES” OR “NO”)
_____.

(ii)

She undeservedly received no salary
increase in July 2007.
(ANSWER “YES” OR “NO”)
.

(iii)

She received a lower than deserved
bonus and no Chairman’s shares in
December 2006.
(ANSWER “YES” OR “NO”)
_.

(iv)

She received a lower than deserved
salary increase in July 2006.
(ANSWER “YES” OR “NO”)

.

She received a lower than deserved
bonus and no Chairman’s shares in
December 2005.
(ANSWER “YES” OR “NO”)

.

(v)

(vi)

She received a lower than deserved
salary increase in July 2005.
(ANSWER “ YES” OR “NO”)
_____.

(vii)

She was subjected to harassment in
her workplace.
(ANSWER “YES” OR “NO”)
.

If you have answered “NO” to all Questions
in the subparts of Section 3.A, answer no further
questions and sign, date the last page and return
your Verdict. Otherwise, turn to Section 3.B.
Answer only those questions in the subparts
to Section 3.B parallel to those questions in the
subparts of Section 3 A. to which you have answered
“YES.”
9a

3.B

Has Ms. Lawson proven by a preponderance of
the evidence that retaliation for engaging in
the protected activity of providing information
concerning her reasonable belief that
Fidelity’s conduct could constitute violation of
Federal law relating to fraud against
Fidelity’s Mutual Fund shareholders was a
contributing factor to any adverse
employment action you have found in your
answers to the questions posed in Section 3.A?
(i)

She was constructively discharged from
employment in September 2007.
(ANSWER “YES” OR “NO”)
____ .

(ii)

She undeservedly received no salary
increase in July 2007.
(ANSWER “YES” OR “NO”)

.

(iii)

She received a lower than deserved
bonus and no Chairman’s shares in
December 2006.
(ANSWER “YES” OR “NO “)
_____.

(iv)

She received a lower than deserved
salary increase in July 2006.
(ANSWER “YES” OR “NO”)

.

She received a lower than deserved
bonus and no Chairman’s shares in
December 2005.
(ANSWER “YES” OR “NO”)

.

(v)

(vi)

She received a lower than deserved
salary increase in July 2005.
(ANSWER “ YES” OR “ NO”)

10a

____ .

(vii)

She was subjected to harassment in her
workplace.
(ANSWER “YES” OR “NO”)
___

If you have answered “NO” to all questions
in the subparts of Section 3.B that you are
obligated to answer, then answer no further
questions and sign, date the last page and return
your Verdict. Otherwise, turn to Section 3.C.
Answer only those questions in the subparts
to Section 3.C parallel to those questions in the
subparts of Section 3.B to which you have
answered “YES.”
3.C

Has Fidelity has [si'c] proven by clear and
convincing evidence that it would have
taken the same adverse employment action
you have found retaliatory in response to
questions posed in Section 3.B with respect
to Ms. Lawson, regardless of Ms. Lawson’s
protected activity?
(i)

She was constructively discharged
from employment in September 2007.
(ANSWER “YES” OR “NO”)
_____.

(ii)

She undeservedly received no salary
increase in July 2007.
(ANSWER “YES” OR “NO”)
_____.

(iii)

She received a lower than deserved
bonus and no Chairman‘’s shares in
December 2006.
(ANSWER “YES” OR “ NO”)
_____.

11a

(iv)

She received a lower than deserved
salary increase in July 2006.
(ANSWER “YES” OR “NO”)
____

(v)

She received a lower than deserved
bonus and no Chairman’s shares in
December 2005.
(ANSWER “YES” OR “NO”)
____

(vi)

She received a lower than deserved
salary increase in July 2005.
(ANSWER “YES” OR “NO”)
____

(vii)

She was subjected to harassment in
her workplace.
(ANSWER “YES” OR “NO”)
____

If you have answered “YES” to all
questions that you are obligated to answer in
the subparts to Section 3.C, answer no
further questions and sign, date the last page
and return your Verdict. Otherwise, turn to
the instructions for Question 4.A(i).
Answer Question 4.A(i) only if you have answered
“NO” to any one or more of Questions 3.C(ii)-(vii)
you were obligated to answer. Otherwise, turn to
the instructions for Question 4.A(ii)(a).
4.A

(i) What dollar amount of damages, if any,
has Ms. Lawson proven by a preponderance
of the evidence Fidelity owes her as lost
wages and other economic benefits through
the date of this trial as a result of
retaliatory adverse employment action she
received while she was employed by
Fidelity?
12a

Answer in Dollars(“$”) OR “NONE.”
Answer Question 4.A(ii)(a) only if you have
answered “NO” to Question 3.C(i).
(ii) (a) Has Fidelity proven by a
preponderance of the evidence that Ms.
Lawson failed to mitigate her damages for
lost wages and other economic benefits
after she left Fidelity’s employ?
(ANSWER “YES” OR “NO”)
If you have answered “YES” to Question 4.A(ii)(a),
you may include in any damage amount you
determine in your answer to Question 4.A(ii)(b)
below only damages for any time period, after her
employment with Fidelity and up to the date of
your verdict, during which you find Ms. Lawson
used reasonable diligence under the
circumstances to reduce her damages.
(ii) (b) What dollar amount of damages, if
any, has Ms. Lawson proven by a
preponderance of the evidence Fidelity owes
her as lost wages and other economic
benefits after she left Fidelity’s employ
through the date of this trial?
Answer in Dollars (“$”) OR “NONE.”
4.B.

What dollar amount of damages, if any, has
Ms. Lawson proven by a preponderance of
the evidence Fidelity owes her for emotional

13a

distress as a result of the retaliatory
employment action you have found?
Answer in Dollars (“$”) OR “NONE.”

Ip 1/■
r//

/FOREPERSON

11/14/17
DATE

14a

APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
JACKIE HOSANG LAWSON,
Plaintiff,
v.
FMR LLC, dba FIDELITY INVESTMENTS;
FMR CORP., dba FIDELITY
INVESTMENTS; and FIDELITY
BROKERAGES SERVICES LLC, dba
FIDELITY INVESTMENTS
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)

CIVIL ACTION NO.
08-10466-DPW
MEMORANDUM AND ORDER
July 12, 2018
Along the path to an unsuccessful jury verdict
with respect to her claim of alleged illegal retaliation
by her employer Fidelity Investments, the plaintiff,
Jackie Hosang Lawson, achieved an important
interlocutory victory in the Supreme Court affirming
the right to pursue such a theory under the SarbanesOxley Act, 18 U.S.C. § 1514A. Lawson v. FMR LLC,
571 U.S. 429, 134 S.Ct 1158, 188 L.Ed.2d 158 (2014).1
1 The instant case was one of two separate matters —
this one brought by Ms. Lawson, the other by Jonathan Zang,

15a

Ms. Lawson now seeks a partial award of attorney
fees for that interlocutory success.
Ms. Lawson’s right to attorney fees turns on
whether she may be termed a prevailing party in a
case where judgment on the merits of her substantive
claims ultimately entered for the defendant. Hewitt v.
Helms, 482 U.S. 755, 759, 107 S.Ct. 2672, 96 L.Ed.2d
654 (1987) (“In order to be eligible for attorney’s fees
. . . a litigant must be a ‘prevailing party.’”). She
asserts she is a prevailing party to the degree of her
interlocutory victory because the first of the prayers
she made for relief in her complaint was for a
declaration that the defendant “Fidelity Investments,
as a contractor and/or a subcontractor to Fidelity
Mutual Funds, is a covered employer under 18 U.S.C.
§ 1514A.” That is the legal issue as to which she was
successful in the Supreme Court.
As a formal procedural predicate for attorney
fees on this basis, Ms. Lawson seeks to amend the
judgment in this case to recognize by means of a
Zang v. Fidelity Management & Research Co., No. 08-cv-10758DPW — in which by a consolidated memorandum I declined to
grant a motion to dismiss Sarbanes-Oxley whistleblower claims
against Fidelity entities. Lawson v. FMR LLC, 724 F. Supp. 2d
141 (D. Mass. 2010). I certified my decision for interlocutory
appeal. Lawson v. FMR LLC, 724 F. Supp. 2d 167 (D. Mass.
2010). On appeal, the First Circuit reversed my underlying
decision with respect to the applicability of the Sarbanes-Oxley
whistleblower claims. Lawsonv. FMR LLC, 670 F.3d 61 (1st Cir.
2012). The Supreme Court in turn reversed the decision of the
First Circuit. Lawsonv. FMR LLC, 571 U.S. 429, 134 S.Ct. 1158,
188 L.Ed.2d 158 (2014). Mr. Zang thereafter settled his case with
Fidelity. Ms. Lawson proceeded to trial where the jury rejected
her Sarbanes-Oxley claim on the merits. She is pursuing an
appeal prose. Lawsonv. FMR LLC, appeal docketed No. 17-2220
(1st Cir. Dec. 19, 2017).

16a

separate declaration her interlocutory procedural
victory. I decline to engage in that sleight of hand. The
core purpose of a declaratory judgment is the
termination of the case or controversy before the court
on the basis of largely undisputed facts. 28 U.S.C.
§ 2201(a) (authorizing federal courts to “declare the
rights and other legal relations of any interested
party seeking such declaration, whether or not
further relief is or could be sought” and noting that
“[a]ny such declaration shall have the force and effect
of a final judgment or decree”); see Hewitt, 482 U.S.
at 760-63 (noting that a declaratory judgment is a
form of “[rjedress . . . sought through the court, but
from the defendant” and concluding that “a favorable
judicial statement of law in the course of litigation
that results in judgment against the plaintiff does not
suffice to render him a ‘prevailing party’” because a
favorable statement of law that has no impact on the
relationship between the plaintiff and the defendant
is not equivalent to a declaratory judgment)
(emphasis in original). This case was never in that
posture. I would not in the ordinary course enter a
declaratory judgment that did not serve the core
purpose of the declaratory judgment procedure. To do
otherwise would be to issue an advisory opinion.
More specifically, I conclude that in the context
of this litigation, the declaration sought in Ms.
Lawson’s prayer for relief does not exist as a
standalone claim. Rather, it is a procedural
dimension to the substantive claim Ms. Lawson
unsuccessfully pursued. Achieving an interlocutory
procedural victory in a case where final judgment
enters for the opposing party, does not confer
prevailing party status upon the party against whom
final judgment enters. See Buckhannon Bd. & Care
17a

Home, Inc. v. West Virginia Dep’t ofHealth & Human
Res., 532 U.S. 598, 603, 121 S.Ct. 1835, 149 L.Ed.2d
855 (2001) (“a 'prevailing party’ is one who has been
awarded some relief by the court.”); Hewitt, 482 U.S.
at 760 (noting that a plaintiff must “receive at least
some relief on the merits of his claim before he can be
said to prevail” and that “an interlocutory ruling that
[a plaintiffs] complaint should not have been
dismissed for failure to state a constitutional claim
... is not the stuff of which legal victories are made”);
Hanrahan v. Hampton, 446 U.S. 754, 758-59, 100
S.Ct. 1987, 64 L.Ed.2d 670 (1980) (“Congress
intended to permit the interim award of counsel fees
only when a party has prevailed on the merits of at
least some of his claims,” and “procedural or
evidentiary rulings . . . were . . . not matters on which
a party could ‘prevail.’”); Gay Officers Action League
v. Puerto Rico, 247 F.3d 288, 293 (1st Cir. 2001) (“a
plaintiff prevails when actual relief on the merits of
his claim materially alters the legal relationship
between the parties by modifying the defendant’s
behavior in a way that directly benefits the plaintiff.”)
(quoting Farrar v. Hobby, 506 U.S. 103, 111-12, 113
S.Ct. 566, 121 L.Ed.2d 494 (1992)) (internal quotation
marks omitted).
The fully and vigorously litigated trial of this
case on the merits underscores that Ms. Lawson’s
success in establishing a right to pursue her claims
was only one hurdle to resolution on the merits. While
grounding that right in the Sarbanes-Oxley Act was a
necessary condition to prevailing status for her, it was
not sufficient. Artificially restyling the basis for
pursuing the claim as a separate declaratory
judgment does not transform ultimate lack of success
into a partial victory entitled to recognition as a basis
18a

for establishing prevailing party status under the law
of attorney fees.
Accordingly, I hereby DENY both the motion
(#378) to alter judgment and the motion (#380) for
attorney fees.
/s/Douglas P. Woodlock
DOUGLAS P. WOODLOCK
UNITED STATES DISTRICT JUDGE

19a

APPENDIX E
STATUTES AND REGULATIONS
INVOLVED
18 U.S. Code § 1512. Tampering with a witness,
victim, or an informant
(a)
(1) Whoever kills or attempts to kill another
person, with intent to—
(A) prevent the attendance or testimony of
any person in an official proceeding;
(B) prevent the production of a record,
document, or other object, in an official
proceeding; or
(C) prevent the communication by any
person to a law enforcement officer or
judge of the United States of information
relating to the commission or possible
commission of a Federal offense or a
violation of conditions of probation,
parole, or release pending judicial
proceedings; shall be punished as
provided in paragraph (3).
(2) Whoever uses physical force or the threat
of physical force against any person, or
attempts to do so, with intent to—
(A) influence, delay, or prevent the
testimony of any person in an official
proceeding;
(B) cause or induce any person to—

20a

(i) withhold testimony, or withhold a
record, document, or other object,
from an official proceeding;
(ii) alter, destroy, mutilate, or conceal
an object with intent to impair the
integrity or availability of the object
for use in an official proceeding;
(iii) evade legal process summoning
that person to appear as a witness, or
to produce a record, document, or
other object, in an official proceeding;
or
(iv) be absent from an official
proceeding to which that person has
been summoned by legal process; or
(C) hinder, delay, or prevent the
communication to a law enforcement
officer or judge of the United States of
information relating to the commission or
possible commission of a Federal offense
or a violation of conditions of probation,
supervised release, parole, or release
pending judicial proceedings; shall be
punished as provided in paragraph (3).
(3) The punishment for an offense under this
subsection is—
(A) in the case of a killing, the punishment
provided in sections 1111 and 1112;
(B) in the case of—
(i) an attempt to murder; or
(ii) the use or attempted use of
physical force against any person;

21a

imprisonment for not more than 30
years; and
(C) in the case of the threat of use of
physical force against any person,
imprisonment for not more than 20 years.
(b) Whoever knowingly uses intimidation,
threatens, or corruptly persuades another person,
or attempts to do so, or engages in misleading
conduct toward another person, with intent to—
(1) influence, delay, or prevent the testimony
of any person in an official proceeding;
(2) cause or induce any person to—
(A) withhold testimony, or withhold a
record, document, or other object, from an
official proceeding;
(B) alter, destroy, mutilate, or conceal an
object with intent to impair the object’s
integrity or availability for use in an
official proceeding;
(C) evade legal process summoning that
person to appear as a witness, or to
produce a record, document, or other
object, in an official proceeding; or
(D) be absent from an official proceeding
to which such person has been summoned
by legal process; or
(3)
hinder,
delay,
or prevent the
communication to a law enforcement officer or
judge of the United States of information
relating to the commission or possible
commission of a Federal offense or a violation
of conditions of probation [1] supervised
22a

release,, [1] parole, or release pending judicial
proceedings; shall be fined under this title or
imprisoned not more than 20 years, or both.
(c) Whoever corruptly—
(1) alters, destroys, mutilates, or conceals a
record, document, or other object, or attempts
to do so, with the intent to impair the object’s
integrity or availability for use in an official
proceeding; or
(2) otherwise obstructs, influences, or
impedes any official proceeding, or attempts
to do so, shall be fined under this title or
imprisoned not more than 20 years, or both.
(d) Whoever intentionally harasses another
person and thereby hinders, delays, prevents, or
dissuades any person from—
(1) attending
proceeding;

or

testifying

in

an

official

(2) reporting to a law enforcement officer or
judge of the United States the commission or
possible commission of a Federal offense or a
violation of conditions of probation
supervised release,,1 parole, or release
pending judicial proceedings;
(3) arresting or seeking the arrest of another
person in connection with a Federal offense;
or
(4) causing a criminal prosecution, or a parole
or probation revocation proceeding, to be
sought or instituted, or assisting in such
prosecution or proceeding; or attempts to do

23a

so, shall be fined under this title or
imprisoned not more than 3 years, or both.
(e) In a prosecution for an offense under this
section, it is an affirmative defense, as to which
the defendant has the burden of proof by a
preponderance of the evidence, that the conduct
consisted solely of lawful conduct and that the
defendant’s sole intention was to encourage,
induce, or cause the other person to testify
truthfully.
(f) For the purposes of this section—
(1) an official proceeding need not be pending
or about to be instituted at the time of the
offense; and
(2) the testimony, or the record, document, or
other object need not be admissible in
evidence or free of a claim of privilege.
(g) In a prosecution for an offense under this
section, no state of mind need be proved with
respect to the circumstance—
(1) that the official proceeding before a judge,
court, magistrate judge, grand jury, or
government agency is before a judge or court
of the United States, a United States
magistrate judge, a bankruptcy judge, a
Federal grand jury, or a Federal Government
agency; or
(2) that the judge is a judge of the United
States or that the law enforcement officer is
an officer or employee of the Federal
Government or a person authorized to act for
or on behalf of the Federal Government or

24a

serving the Federal Government as an
adviser or consultant.
(h) There is extraterritorial Federal jurisdiction
over an offense under this section.
(i) A prosecution under this section or section
1503 may be brought in the district in which the
official proceeding (whether or not pending or
about to be instituted) was intended to be affected
or in the district in which the conduct constituting
the alleged offense occurred.
(j) If the offense under this section occurs in
connection with a trial of a criminal case, the
maximum term of imprisonment which may be
imposed for the offense shall be the higher of that
otherwise provided by law or the maximum term
that could have been imposed for any offense
charged in such case.
(k) Whoever conspires to commit any offense
under this section shall be subject to the same
penalties as those prescribed for the offense the
commission of which was the object of the
conspiracy.
18 U.S. Code § 1514A. Civil action to protect against
retaliation in fraud cases
(a)Whistleblower Protection for of Publicly Traded
Companies.—No company with a class of securities
registered under section 12 of the Securities
Exchange Act of 1934 (15 U.S.C. 1S1), or that is
required to file reports under section 15(d) of the
Securities Exchange Act of 1934 (15 U.S.C. 78o(d))
including any subsidiary or affiliate whose financial
information is included in the consolidated financial
25a

statements of such company, or nationally recognized
statistical rating organization (as defined in section
3(a) of the Securities Exchange Act of 1934 (15 U.S.C.
78c), [1] or any officer, employee, contractor,
subcontractor, or agent of such company or nationally
recognized statistical rating organization, may
discharge, demote, suspend, threaten, harass, or in
any other manner discriminate against an employee
in the terms and conditions of employment because of
any lawful act done by the employee—
(1) to provide information, cause information to be
provided, or otherwise assist in an investigation
regarding any conduct which the employee
reasonably believes constitutes a violation of
section 1341, 1343, 1344, or 1348, any rule or
regulation of the Securities and Exchange
Commission, or any provision of Federal law
relating to fraud against shareholders, when the
information or assistance is provided to or the
investigation is conducted by—
(A) a Federal regulatory or law enforcement
agency;
(B) any Member of Congress or any committee
of Congress; or
(C) a person with supervisory authority over
the employee (or such other person working
for the employer who has the authority to
discover,
or
terminate
investigate,
misconduct); or
(2) to file, cause to be filed, testify, participate in,
or otherwise assist in a proceeding filed or about
to be filed (with any knowledge of the employer)
relating to an alleged violation of section 1341,
26a

1343, 1344, or 1348, any rule or regulation of the
Securities and Exchange Commission, or any
provision of Federal law relating to fraud against
shareholders.
(b) Enforcement Action.—
(l)In general.—A person who alleges discharge or
other discrimination by any person in violation of
subsection (a) may seek relief under subsection
(c), by—
(A) filing a complaint with the Secretary of
Labor; or
(B) if the Secretary has not issued a final
decision within 180 days of the filing of the
complaint and there is no showing that such
delay is due to the bad faith of the claimant,
bringing an action at law or equity for de novo
review in the appropriate district court of the
United States, which shall have jurisdiction
over such an action without regard to the
amount in controversy.
(2) Procedure.—
(A)In general.—
An action under paragraph (1)(A) shall be
governed under the rules and procedures set forth
in section 42121(b) of title 49, United States Code.
(B)Exception.—
Notification made under section 42121(b)(1) of
title 49, United States Code, shall be made to the
person named in the complaint and to the
employer.

27a

(C)Burdens of proof.—
An action brought under paragraph (1)(B) shall be
governed by the legal burdens of proof set forth in
section 42121(b) of title 49, United States Code.
(D)Statute of limitations.—
An action under paragraph (1) shall be
commenced not later than 180 days after the date
on which the violation occurs, or after the date on
which the employee became aware of the
violation.
(E)Jury trial.—
A party to an action brought under paragraph
(1)(B) shall be entitled to trial by jury.
(c) Remedies.—
(1)In general.—
An employee prevailing in any action under
subsection (b)(1) shall be entitled to all relief
necessary to make the employee whole.
(2)Compensatory damages.
Relief for any action under paragraph (1) shall
include—
(A) reinstatement with the same seniority
status that the employee would have had, but
for the discrimination;
(B) the amount of back pay, with interest; and
(C) compensation for any special damages
sustained as a result of the discrimination,
including litigation costs, expert witness fees,
and reasonable attorney fees.

28a

(d)Rights Retained by Employee.—
Nothing in this section shall be deemed to diminish
the rights, privileges, or remedies of any employee
under any Federal or State law, or under any
collective bargaining agreement.
(e) Nonenforceability of Certain Provisions Waiving
Rights and Remedies or Requiring Arbitration of
Disputes.—
(1)Waiver of rights and remedies.—
The rights and remedies provided for in this
section may not be waived by any agreement,
policy form, or condition of employment, including
by a predispute arbitration agreement.
(2)Predispute arbitration agreements.—
No predispute arbitration agreement shall be
valid or enforceable, if the agreement requires
arbitration of a dispute arising under this section.
Rule 702. Testimony by Expert Witnesses
A witness who is qualified as an expert by knowledge,
skill, experience, training, or education may testify in
the form of an opinion or otherwise if:
(a) the expert’s scientific, technical, or other
specialized knowledge will help the trier of fact to
understand the evidence or to determine a fact in
issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles
and methods; and
(d) the expert has reliably applied the principles and
methods to the facts of the case.
29a

28 U.S. Code § 1254. Courts of appeals; certiorari;
certified questions
Cases in the courts of appeals may be reviewed by the
Supreme Court by the following methods:
(1)
By writ of certiorari granted upon the petition of any
party to any civil or criminal case, before or after
rendition of judgment or decree;
(2)
By certification at any time by a court of appeals of
any question of law in any civil or criminal case as to
which instructions are desired, and upon such
certification the Supreme Court may give binding
instructions or require the entire record to be sent up
for decision of the entire matter in controversy.

30a

